,^20-5761
XN THE

Supreme

court of the united states
SupieTne Court, USFILED

SEP 1 1 2020

IN RE AnITonxo n. BoGAN

2£22§oftheclerK

PETITION! for writ of habeas corpus

AnTonio M. Boqor>
XD Ho. R2R5R.5
I0RSD Ixiu) fence. f?oad
SLUnnerj XL C>2.4£>£>
PRDSE

QUESTION PRESENTED)
After more than 14 months of the: United States Distriat
(Court -tarthe Northern Ustridt of Illinois delaying Tilting
s Origin q! petti on tar ixint of habeas
ion Mr. Bogans
(Corpus

and Mr. Bagan petitioning The. United States

Court of Appeals tar the Seventh Circuit fir a lorit of rOcundamus to Compel a prompt,just decision — the district
Court denied the petition arid a Certificate of appealabl Ity
(COAl

in ithiout
i

tour Consideration and plenary processing

of the. CJaeKsan \i. Virginia, 445 LLS. 307 (14741 Claim.
Suhseguentlg, Mr, Bogans request tor a CoA luos denied
Eg the Seventh Circuit Court of Appeals * not through a thres­
hold inquiry, but by using a tklse procedural ground to
disregard the issues m the CD A request. The_ question
presented is »
Idhdher habeas Corpus relief is being denied Lohere (at
the Slate of Illinois tailed to prove theSubstantn/e de^
merfe of Construeti\/e possession ~ Mr, Bogans til immedi
ate and exclusive Control of a Car Containl nga defaced handgun and L2t hnaioledge of the uoeapan being thernn \ Cb)
The dldncf Court, as retaliation, deprived Mr. Sagan of a
full and tour hearing and (el the Court of appeals, in dollu'
3on mith the district Court to deny a fill and tour hearing,
deprived Hr. Bogan of a full and tdir CoA hearing.

Reasons Tor not

making application to

DISTRICT COURT OF DISTRICT OF CONFINEMENT
Pursuant To 2.8 L). S. C. Jl 2242, the reasons Hr. G>ngan
decided to mate- appli’enttQjn in the United States Supreme
Court rather- than the United States District Court fiar the
Southern District of Illinois is because (application to the
district Court incut d have been futile,, as a pra/iaus peti­
tion and CjOA had been denied and the Court retains T)o
ajuthontg to cu/errale a sister district Court or a Court of ap^
peals. Moreox/er, the luag Kir. Bogans previous petition

UUQS

treated hg the- district Court and the Court of appeals leads
him to believe. he loili not receive a fail and ftur hearing in
Ong Court other than the -Supreme Court of the LLruted States.

%«

II

LIST OF PARTIES
Antonio M J2>og an, Petitioner
Deanna M. ^^aoKhajtj Warden, Respondent
Laurence (^orreetionali Center

Related

ca&es

• People v. £>ogan, Klo.
iS'CUSCjj Third District Appellate
Court of lilinoia. Judgment ertered Apri 1 2>, 2011.
• People si. fi>cgar\, f\)o. 12.23(o5, Supreme Court ot Tliincus.. Tuxlcp
mert ertered September 27, 2017.
•£)O0ar\ v. Lasbbrad!£7 ito. \1C,'T2^\> US. District Cemt Airtime
hlortKern Dislrict of Illinois, dudgment entered Tar\uoirg It ,20^-1.
•In re Antonio M. (2>cgan, i\)o. IfrSC&O, LIS. Court of Appeals '(or
Sej/ertb Circuit. dudbynert ertfcred danuarg 22>, 20l°l.
•In re Antonio M. ^ogctn, Nlo. iTlb&G, US. Court at Appeals 4or
tKe Sei/ertf Circuit. dudgmert ertered April \Co) ^OlT
*l3ogan v. GrojoLhari, do.

US. CauPt of Appeals '(or ttve

Sex/erth Circuit. dLdgrnent entered December 20, 2013.
* Dogoun v. C^aoKhout, do. It'&loQ, Supreme Court of tke. tinted
States. Tudgment entered Apr»l 27, 2020.
♦ In re Antonie M* G>agan, do. 20"2jSj2>L US. Court of Appeals
tar tKe Sei/ertk Circuit. Tudgmervt entered September &y 2020.

* # ♦

m

TABLE OF CONTENTS

OHAUST2COM OF RmrDIIES

a

OURX5D^(1T3:otnI . „ * .

r

<r>

.

ft

ft

ft

et

ft

*-

•>

ft

0

<■*

*

.

r

*

ei

ri

ft

State Trio! Court Proceedings .

b

State Appellate Court 'Proceedings - » . »

»

n

Standard of PeVi &uj.

,, „

ft

ft

o

,

ft

4'

»

ft*

a*

r

C

c

o

f

n

*>

o

ft

ft

ft

o

ft

*

1

ft

#

A A « ll

ft

ci

3

A

,7
ft>

ft

Federal Court at Appeals Proceedings. . * . .
PEASDMS POR GRAMTTMGi TiAE InIRXT . .

ft

a*

«J

ift

ft

*>

Pod Era! District Court Proceed fngs . a * «

|

«•

«b

COMSTTTUTTQNAL AMD STATUTORY PROVISIOMS TNVDLVEC) . ,»
^.TATEHlEiMT OF THE CASE . .

ft

e

ft

» ft

A

n

ft

ft

t

13

I fs
l-

I

. « 17

o

A. The Essentia! Elements For Proving Constructive
Possession Linder Illinois Lcllo . „ . »

«

c

r

r

*j

1. The State Fouled To Prove Hr. Bogans Immedi ­
ate And Ex.elusive Control (Actual Possession! ot
The Car Containing The Detncod Itandgun

e»

ft

ft

13

«. IR

2. the State Faded To Prove Mr. Bogans Pnau)-'
ledge at The Detaeed Itandgum Being Tn •
The Car. „ „ c
c
&
c
e
ft

o

0

ft

IV

ft

ft

4'.

ft

• . 23

J

B. 'The District Courts As Retaliation, Deprived Hr.
Bogan of A Foil And Fair Habeas. Hearing. . * * «« 2.7
C. The Court ot Appeals, In Collusion bl.th The
District Court To Deng A Fail And Fair Haioeas Hearing., Denied Hr. Sagan A Full And
Fair Co A Hearing. „ . . . „
Conclusion „

. „ * *

. . 31
- . 35

TNDEX TO APPENDICES

Appendix A

State Trial Record

Appendix

b

Sentencing Dudgnoerst

Appendix

c

State Appellate Court Opinion

Appendix

d

State Supreme Court Decision Dengiog
Leave To Appeal

Appendix

e

Original Petition fixr Idrit of Habeas Cor­
pus

Appendix E

Respondents Ansioer To Petition tar Wlrit
of Habeas Carpus.

Appendix G»

Response To Respondents Ansiotr

Appendix H

Distriat Courts Opinion

v

Appendix x

District Courts Order Denying Motion
'To Alter or Amend SudgmenT

Appendix 3

Notice, of Appeal

APPENDxx k

Motion far A COA

Appendix

Supplement To Motion For A CD A

l

Appendix M

District' Courts Order Denying Md~
tion Far Relief of XudgmenT

Appendix

N

Court of Appeals' Order Denying
A CO A

Appendix

o

Court of AppealsJ Order Denying Re­
hearing of CD A Reguest

Appendix

P

Supreme Court Notice Denying Pet"
tion For Wlrit of Certiorari

vi

TABLE OF AlJTHORXTXES CXTED
SASES

PAS»e tsio.

Caracas n/« LaVcJle.. 3°)! u.3. 234 U°IG&).. „ . „

...... 2.6

Colernan V. Xoh r\30Jn 132 5. St 2DGO (2012).

3d)

Pattis v. Martgoroeruj , <552 ESd 576 0* Cir. 2004) . e„,.3D
FolJ V. NIqjo, 372 U.S. 34» 0433).

o « «.o I D, 27

3d

Ford V. Ah,Hold, 104 K3d 42& CT* Cir. 1447).
Gomez. V. Acevedo, 10G> L3d 142 Cl41' Cir. 1441). .

14,30

Harrington V. PichtEr,5&2 U.3. B& (2011). ..... 17,21,23,24,27
Harris v. Hdsan, 344 US. 233 CI4&4)., „ „ . .

. . . * 23,35

Xn re AntanYo K 0agar>, l8-3k80 (7* Cir. 2018^. . . . *. 4, 28
tTacksan V. Virginia, 443 U.S. 307 \
(. 1474). . . .
. . * . <3,15,17, 23,27, 24,30,31,32,33,34,35
Mi Her-El \l. SooKrel), 123 5.St 1024C2003). .... .,31,32,33
Pojnett, V. Quajtarncun, 551 U.S. 430 C2oal). . .. . „ .... 17
People V. Billings,52Xll.A^p.3d 4l4 0477). „ . . .
People v. Choo/ez,327 xil. AppSd 18 (2ool). ....

r •

Mw

Ci

»

(t

«$>

*

e i*

6

4>

18
I U

91
4.1

People. V. Ehleit, 2JI III. 2d 112 (20041. ......

„ 2.G>

&

People, v. Elders, &3 III. Ape.3d 564 09781 .... ..... 18. 20
People V. Hampton, 358 Ill.App.3d ID29 (2ooo1........... 24,25
People V. Hunter, 2013 IL 114100. ....

A X> * A

18

People, v. li^Meelij, 44 XII. App.3d 1021 04817. ........ 21
People. M. Scott*, 3Cd7 XII. App.3d 233 ( 2000"). . . . .

. . 20

People V. Sehmaixj 144 XII. 2d 75 (20007 . * „ „ „ n

» . o 18

People, v. Sesmos, 227 Xll.App.3d 1040 04427. «... . . .. 2.1
People. 7. SmVth, 141 XI 1.23 4o8 (20oo). . „ „ . • *

. . . 23

People v. Whelan, 145 XII.App.33 I2S 078(2)7.

ti

t>

. 21

People v. White, 33 XII. App.3d 523 04757.......
People, v. Wright; 2013 XL APP CP*') IH8Q3. ........ 23
People. V. Zentz, 20 XII. App.3d 205 04757. ........ 2D
.SladC V. McDar»teJj 524 U.S. 473 C2ooo)

»

33

A

-----•

United ^ntes ex ret Cande v. Scott,
. „ „ . 30

224 KSapp. 23 1203 CM.D. XII. 20027 ......
United Stotes ex reJ. Leyva v. l/JoJl^j.

230 FiStipp.2d 847 (N.D. XII. 2002). ......

P

&

A

f>

3n

<__ / IV

V111

A

United Spates \/. Medrano, 5 K3d 12.14 tTKCir. USaT. . - 20
United States, v. Solos, 5Cj n.Supp.3d 402 Clsl. D.XII, 20H')- . . 2&
Kill Hams v. "Taylor, 524 U.S. 36>2 C2ooo) ....

----1C)

STATUTES
2^ US.a. 3 2253 . . .

o

26 U.5. C..3 2254 tel. . ,

o

o

26 U.S.C..8 2.254 (cOCH. . . .
720 XLCS 5/24- 1.7(aid”). . .

720 TlilS 5/24-5Cb"). . „

O

*3

c

&

c»

O

ft

»

o

ft

4

«>

ft

i*

*5

O

, - . . 4,5,3s

n

r

ft

* . 2,5,1c.

- . 5, &, 13,16,23,27

o

*

r>

ft

O

. . . fi>,7,18

<*»

*

- . - - 6>,7, IB

OThUETR
United STntdS Constitutor*, Art

2 » .. - - « - . - 3^\Ca

United States ConsTi Tutionfrith Amend merit „

* r

3,4, 26,32,34,35

United States, Conshtutimv, Fourteenth
Amendment. ., - -

*>

o

»

%

i*

- . , . 3,4f 28,32,34,35

EXHAUSTION OF REMEDIES
Mr. Bogan C-haJYenged the Sufficiency of the. evidence,
on direct appeal before, the Illinois third Dis\ricf Appellate
Board. A true and accurate Copy of the Courts opinion op"
pears at Appendix 0 to the petition
After his ConVi ct1ans uoere. affirmed an (direct lOppeaf
Mr. Began timely petitioned the Illinois Supreme Court
tor leoa/eto appeal. A true and occur ate Copy of the.
Courts decision appears at Appendix D to the petition.
After being denied leave to appeal by the 'Illinois 3u preroe. Court* Mr. Bogan timely petitioned the U.S. ’Dis"
tried Court tar the Northern OBtrich ot Illinois tar n lord
of habeas Corpus. A true and accurate Copy of the Courts
opinion appears at Appendix E do the petition.
After the duftrict Court denied his timely motion to alter
Dr amendjudgment) Mr. Bogan timely requested a CD A
from the U. 5. (Court of Appeals tor the Seventh Circiut.
A true cmd accurate Copy of the Courts order appears at
Appendix N to the petition.
After the Court ot appeals denied his timely motion to rcConsideg Mr. fiagan timely petitioned the U.S. vSup reme.
for a lurit of Certiorari. A true and accurate Copy of the.
Courts decision appears dV Appendix P to the petit an.

JURISDXCTXtMt
Pursuant to 25 U.S.O. .§ 2254 Cat, the Court hasjur­
is diedion to entertain Mr, Bogans application "for lorit
of habeas Corpus because, he. Contends that he is in castodg of the State of Illinois in Violation of the Const tm
tion of the United States.

2

(CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Arhcle 1, Secduon °lt Clause.

United Sdcdes Coj^ffiAior)

The Privilege erf She bind of iSaJbeas Carpus shall not be.
Suspended, unless in Coses of Rebellion or Invasion She
public. ^Safely may reguJre i+.
Amendment V, Unifed Sdortes Cnnsftudlojn
Nlo person shall be held 4a ansiuer far a Cop’do 1 or offerbuise infamous Crime, Unless on a preserfmerd or in died-"
mend of a firand Jury, except in coses OLnsing in She land
Or navel farces, or in She Milifia, mhen in oefunl Service in
dime of l/Sar or public danger ; nor shall any person be
SuJgecd far She Same offense do be Siuice put in jeopardy
of life, ar limb J nor shall be Compelled in any Criminal Cose
So be a inifness against himself, nor be deprived life, It body,
(Or properly, luifhaud due process of laiu ^ nor shall private
prOperdy heSuKenfar public Lise, mifhaudjust CoropensajKoTh
Amendmend VlT LLnlfed Slates Consffjfian
All persons bam or nodurolized inShe LLniied S4odes, and
Subject SoShejurisdiedion Shereof, are Citizens of She LJLnded
Strifes and of She Stale bohereinSheg reside. Nlo Sfafe shall

mobe or -enforce any Iollo Lohibh shall abridge the privi leges
or immunities of Citizens aP the United States *, Oar Shall
any State deprive any pertain of life., liberty, ar property,
Loithiout due process of Igllo \ nor deny Hid any person Luithin
its Jurisdiction the eguaJ protection of the lauQS.
2& U.3.C. 3 1253
Col

Tin Q habeas Corpus proceeding or a proceeding

under Section 22S5 before

disHridl judge, thettnai Order

Shall be Subject to ru/ieto, an appeal, by the Court of appeals
far the Circuit in Luhichthe proceeding is held.
fbl there -Shall be no niglrt of appeal from a'final or­
der in a proceeding to test the Validity uf a LOarrart to ter
pnoK/e to another district ar place for Commit merit or trial
a person Charged uoith a Criminal offense agansl the United
Slates, or to test the Validity of Such persons detention pend"
log removal proceedings.
toll) Unless a circuitJustice arjudae issues a certifrCote of appealability, an appeal may not be HoJ<en to the
Court of appeals tram —
fA) the final order in a habeas Corpus proceeding in
luhichthe detention Complained at arises cuit of process iS"
-Sired by q .State Court ^ or

4

tB”) the final order

in a

proceeding under Sedian 2255«

(2) h Certificate of appeQlabi lifg mag issue under paragraph
O’) Gnlg if the c^pticant has made a ikibstarfi al 3haiaing af the
dermal of o Car^fitufianoJ right.
(3*) The tofifitcdfe of appeal ahi I itg under paragraph (0
Shall indicate mhich Specific. issue or issues Saiistg HheShau}ing repaired hg paragraph t2X
25 US,C.5 2254 Cal
The Supreme Caurfi a Tushice thereof, a Circuit judge ^ or a
dStridt Court ShaJl entertain an application tar a Lur’d of habe­
as Carpus in behalf of a person in custodg pursuant tothe
judgment of a State Court onlg on the ground that he Is in
Custodg In Violation of the Consf tidion or loros or treaties of
the Llnded States.
25 LLS,C. S 2254 GdO CO

)Vy application far a Lur’d of habeas Corpus an behalf of
a person in eusfodg pursunnf do thejlodgment of a State
(Court Shall not be granted Luith respect to ang claim thcdf
luos adjudicated on The merits in State Court proceedings
unless the adjudication of fbe Scum —
hCSaJted in a decision* that luos Corfrarg to7 or in\/ol5

Ved On un reasonable application of, ctearly established
FederoJ louSs , os. determined by %e Supreme: Court of the
United Stales.

720 XLCS 5/24-1.7 conn
A person Commits She offense of being on armed habtaa]
Criminal if he receix/es, Sells, po^esses, or transfer any
'firearm offer having been (jOnv/ieted a total of fed o or more
femes of a forcible fel any.
720 XLCS 5/24'5 Cbl

A person Commits defacing idenfefication marKs of a ferearm iif he possesses any firearm upon which any importers
or manufacturers Serial numbers have been changed, alter'
ad, removed, or obliterated.

&

STATEMENT OP THE CASE
State. Triad Court Proceedings
On October ls 2D14, Hr. Bogan began a bench trial tar
the. Charges of armed habitual Criminal L12Q ILLS 5/24 M. 7
(aHft CUIest '2DI2)) and defacing identification marks of 0
-firearm illo XLCS 5/24'5Cb) (klest 2012)) based on a de'faced Hi-Pcunt .40 Coffer handgun being found in a Cor reglstered in his name. Appx. A at pg. 144'45.
During fried, Officer Tohn Byrne testified that on Sulg 27,
2013, he received information to be an the lookout far Mr. Bogan,
po^ibly driving a white Xmpala.222/ at 150. Upon observing a
white Xropala enter the parking lot of an apartment campled,
Ofc.. Byrne perfarrned a traffic. stop of the Car. 22. The Tenpala was occupied by three individuals absent Mr. Bogan. 22.
at l£5l; 153. As Ofc.. Byrne was pulling into the parking lot
behind the XfopaJa, he observed Mr. fiagan sitting On a patio
cf one of the apartment buildings. 22. at 151. Dfc. Byrne ob­
served Hr. Bogan enter the building tar a moment before re­
turning (Outside. 22. oJt 152. Xn the paring lot loos an Oldsmobile. Cutlass Supreme registered to Mr. Bogan at that oddress, which ofc. Byrne hept watch ax/er until a search war­
rant was aeguired. 22.

7

3ergeard Lairg Collins testified that he

luos

pari' of an

(assignment loading Par Hr, Bogan. 32/. at ISC=>, Upon being
made am are of Hr. Bogan being located at the ISoo block.
oP Moore, Sgt Collin headed to the- location. 32/ When Sgf.
(Collins arrived, he (observed Hr, Bogan e/ifing an apartment
building. 33 at 157, Ggt Collins and boo other officers Immedr
atelg toot Hr, Began into Custodg. 32/ at 158
Detech\/e ITefPreg German testified that upon baYg noth
-Pied that Mr, Bogan had been located at the R00 block, of
Moore ^ he Luert to the location and observed Hr. Bogan in
the back, of q police Car, 33 at RG>. Hr, Bogan had his \ Phone in his possession) ouhloh Det, German CanPI'ocated.
CZc/. at It7"98. Det. German received Luritten Consent from
Hr. Began to Search an apadment beJ ieved to be his. 33 ait
1%. Later, Det, German oLWned a Search in arrant for the Cat"
lass, 32/ at 202, To Commence the Search ot the Car, Det.
German used a sJimjfrn to fore)big enter it due to not finding
its Iteg in Mr. Bogans possession or in the apartment beJiCx/•ed to be hiS . 33 at 2.27-28. Daring the Search , Det. German
discovered on the backseat of the Car a garment bag Conceal'
ing an /VRH5 (, 223 Caliber) stgle rifle, 32/ at 204'0£), The
Car also had items piled up an the rear drivers Side floor­
board I On top loos a red plastic bag Containing an eypireal
health insurance card uuith Mr. Bogans name on it, amongst

B

other miscellaneous items LJc/. at TdG-qQ') ] beneath the plas­
tic. hog uucre tino handguns (a f^ager . 22 Caliber and Q Hi'
Point AO Caliber) LOrapped in Q hlacK. Sureoifehirtt 52/ at 210"
12) c5 and anderneoth the Scoeotshift and handguns, loos q
bianK Canv/as hag Containing five empty rifle, magazines and
tuoo boxes of ammunition (,32 Caliber and . 223 Cal her). ZEc/.
at 215' IT On the front passenger Seal lUereftoo receipts bear­
ing Mr. Bogans norae; dated more fnan -four months prior to
the Cars Search. 52/ at 2n~2L
Evidence ’Technician Chris Ddaneg testified To being pre­
sent to phdiogranh the evidence. as Det. German searched the
Car. Jhl. at J7cr72. After The Search, Mr. Delangg TmK the evidence
hajcKto The police station, JZJ. of 1*73. At the police, station,
Mr. Del an eg dusted the 4too boVes of ammunition tar fingerprints.
ZZc/. at lb2"8t, tloo firgerprirife loere lifted off the box of ,223
hfle ammunition. 52/ at IBC537.
fingerprint Expert Michael Murphy testified that Mr. Bogans
fingerprint matched one of the prints lifted flam the boX ofi
.223 rifle ammunition. ZEd. at 252'C3. Mr Murphg Could not
determine luhen the print mas put on the box or boiu long A had
been there. 52/ at 26 C.
Officer Christopher Botzam testified That be recovered Teua

3

photos of what appeared to be a rifle. 'from Mr. Bogans \ Pbana.
Zb/. at 244 ~ 3Oh Ofe. Botzum did nof hnow

loKo

toolC the photos

or if the dotes, associated 101% the photos were Correct. J2/ at Sd2~
04.
At the dose of the states ei/idence, Hr, Bogan and the State
Stpulated to (I ~) the Hi ~ Point handgun being fingerprinted and no
prints being -found on it \ C2t the weapon being defaced \ and C3t Hr.
Bogan having two prior Convictions for aimed rob berg (forcible
felonies). bZcJ. at 3o4'l3,
was registered in his name
03 a f-ax/or far his ged-brother* Anton spencer, and Spencer gjrh
tritnd; HiCoh Smith. ^ JbJ. at 350“53.354, 3(2)4. "The Car Mr, Bo­
gan owned ujqs the white CTmpaJa, although it wasn't register­
ed in his name. bZcJ. at 303, 3So~61, Or the dag of Mr. logons
arrest^the Cutlass was not in the Qpartmert Compters parting tot
until Spencers arrival, S2/ at 36M82, Spencer left the Cutlass
in the parking lot as he rode to fWo Zone in Mir, Bogans CTm^
pal a with two friends of Mr, Bogairv ,73/ at 334 "5S. "The. last
T-fma Mr, Bogan had been in the Cutlass was Ma/ch> 2013, when
he helped Spencer retrieve. it from an impound mer\t tot and
when Spencer direx/e himta Wlalmart to moneg-g/oum a friend

I. "The. CuLu-t reporter mlscoAsh-ued Mic.ahs last name as TS^mrcHt but Hr.
SegetTv notffi’ed'-fhe. Ciuud'ihat he loos Sag'irg tiSm)thJ>;, Zd. at 304'10.

ID

it SO. 33. at SSCd.
Mr. Bogan Surmised that
the expired health insurance Cord ended up i n the Car as q
result of Spencer having unrestricted access to his apaitmerVh
an the
boV of . 223 rifle ammunition^ Mr. Bogan admitted to touchtine box Lohen Spencer shorOed himthe Qmmo arid rifle offer
Spencer purchased Item. 33J. As to the photos of the rl ftean hiS i Phone, Mr. Bogan'testified that they lucre tested to
him bg Spencer. 333. M Bogan denied putting ary UJcapons
in the Cutlass. 33. at 368.

Based on his legal Quonersh'.p of the Cutlass and other im
djColors of ownership, the Court adjudge Mr. Began guilty
of both Charges. 33. at t33'35. The Court SuhseguenHg Sen'
ttneed Mr. Bogan to 30 ycars Cot 35 %) for the armed babrW
ai Criminal Court and 3gears (at 30%) fir the defacing iden
tificotion marhs of a firearm enurf to beSen/ed ConcurrentIg.
Aodx. B.
State Appellate Court Proceedings
On direct appeal, Mr. Bogan (argued before the Illinois
Third District Appellate Court that the evidence tuas insuffYCiert to prove him guilty beyond a reasonable doubt. AppX,
C. at para. I} 22. Specif'CaJly, Mr.
an argued that the
Slate fouled to prove he possessed the defaced handgun. 3.3.

II

"The Court Sfoted that Since. Mr. Bogan loos not found in Oct"
ulo) possession of the weapon, the Stile LUOS repaired to prove
he Cnnstudwely. possessed if - his CO booLoledge of the pre­
sence. of the weapon and Cl) immediate and evdiisive Control
aver the area inherethe weapon was found. 32/ at 27'26.
-In OnoJyz-ing the immediate and ticki&h/e Control elermnt
for establishing Cansfrucfive possession, the. Court slated that
Owners, attunes, give up Complete Control of their Vehicle, thus
making Control of a Vehicle, rather than legal ownership, the
pertinent etement to prove Under Xllinois lain. JU. at 3I'32,
Nionethel ess, the. Court Canciaded that Me Bogans immediate and evelusive Control of the Cutlass loos established
bg his legal ownership of the Car and the evidence tying him
to it. 22/at 33M2.
As to the Knowledge element W establishing Constructive
possession, the Court Concluded that Mr. Sagans ^regular,
ongoing Control’3 (derived from his legal ownershipt of the
Cutlass Creates a reasonable inference that he Knew) the de­
faced handgun was in the Car. 22/ at 4ta46
the Court affirmed Mr. Bogans Convictions. 32/ at 50~S\.
thereafter, Mr. Bogan timely petitioned the. Xllinois Supreme
Court for leave to appeal, which loQs denied. Apf>X. D,

12

Federal Distric-f Court Pro coed 1*003

§

On October ID, 200, Mr. Gogan 'Piled his ‘25 u.S. C.3
225^ (dXO petition-for uurit of habeas (Corpus, (Contendmg
that the State 'Fculed to prove tine Subdctnf1 ve elements ot
Constructive possession - Spedficiollg, his <( actmod pasr
^essiojn"’ of the Car Containing the defaced handgun — as
defined bg Illinois Icuo* Appx. E.
In Ounsioering Mr. Bogans petition.,the Respondent
C Wlarden daecjueline LashbrooK of Menard CorrectionoJ
Center) Ocguienseed to Mr. Bogan exhausting his State
Remedies before tiroelg petitioning for habeas relief.
App'x. F at para, I-&. Mr. Gogairs Content 1 an of the
State being repaired to prove his aacton) possess) orf*
of the Cutlass to establish his Constructive possession
of line defaced handgun found loiftain, h 010 ever, 10as not
(addressed bg the Respondent. JuJ. at pg. 3~5.
Mr. Bogan replied to the Respondents ansujer

bg de-

monstreting that the State Courts Lin reason ablg applied
the tfaeKson V. Virginia^443 U.3, 307 (MlD standardAppX. G. First, Complging Loifta JoaAson^ Mr. Bogan re­
ferenced Illinois Iollo defining the Constructive posses­
sion element of u immediate and eXelusWe Control^ as

13

u actmai pobsess iann of the area Containing Contra bound.
JZc/ at pg. &'4. I\led) Hr, Bagan argued that the State
failed to proVe. hLs actual possession - cmd intart arid
Capability to exercise. actual possession - of the Cutlass
On the day the defaced handgun was found. Jliof. at cl' M.
Lastly, Mr. Bogan argued that the. State failed to proVe
his knowledge of the weapon being in the Car. _Z2/ at It"
2.4.
Lor mare than It morths,the Court delayed ruling uptOr» Hr, Bogaris habeas, Cl aim, thus prompting Hr, Bogan
to petition the Court of appeals for a wr it df mandamus
to Compel a promptjju^ decision on his habeas petition.
See Xn re Arfonio H. Begojrp I8-3G80. Less than a
iCnoxSth IdVer ( before the Court ot appeals ruied on the man'
damns pdltionfifhe Court denied Mr. Bogans habeas peti­
tion and declined to issue, a CoA, Appx, H ot pg, I. In so
doing,the Court falsely Claimed that Hr. Boxjan argued
uOctuoJ possession of the Subject handgun. lid at 1 n.3),
iuhen he truely argued Ootuui possession of the Car Con­
taining the Subject handgun (Appx* B at pg. I'I5t More­
over) the Court did not reference5 nor address Hr, Bogans
Citation of) Illinois authorities explicitly defining the Sub­
stantive elements of constructive possesion.

14

Me (Bogun timely moved the Court to offer or amend its
judgmert, ushieh loos denied. Appx. X. Eight days, later,
Mr. Bogan ft I tA his notice. of appeal. App/. X
federal Court of Appeals Proceedings
Eleven days after his appeal loos docketed in the Court of
appeals, Hr. Bogan fonmaJ ly moved the Court 4ar a CoA, argu­
ing thof the Slate 4a led to prove the. SuhstaLnti ve. dements of
Constructive possession and the district Court fouled to pro­
Vide a fuJI and fair CJhcJ&on rex/ieiX Appx. 1C. Approxi motely
four months later, Mr. Bogan Supplemented his arguments.

Appx. L.
Xo denying Hr. (Bogans Teguest far a CoA,the Court emEluded that there uoas no Substantial Shau/ing of the denied erf
right In Mr. (Bogans habeas petition being dismissed as Un­
timely. Appx. hi. Although Mr. (Boyrxns fimeJy petition fir re­
hearing argued that the Court aver loaded or misapprehended
Cl') his petition tuas ntt dismissed as untimely but denied an
the (alleged) merits, LZ) his notice, of appeal

lugs timely,,

and (3)

his BOA requests presented issues reason able j urisf Could de­
bate. over or disagree, dth horn his petition mas resolved, the
Court denied reconsideration. AppX. O. the. Supreme Court
•Subsequently denied Certiorari reVieu) of the CoA denial. AppX.
P. Shortly thereafter, the Court of appeals dented mandamus
relief, dee SB re. Antonio H.
OT\ do. >20-2031 (7* CiV.)
15

Reasons for granting the writ
Given explicit recognition in our FederaJ Comtitution is the
Cbfixms right to the Writ of Habeas Corpus. U.S. Constitu­
tion, Art. I,

El. 2. Ik is Godornatic. that the Writs historic

office Is Vindi coition of due process -to proi/ide a prompt
and Efficacious r-emedg 'ftor ujhateVer Society deems to be
intolerable restraints, fag V. Nolo, 312 U.S. 341*401'02 CIRCS’).
Pursuant to 23 U.S.C.. J 2254 (.Q),the Court has authority
to entertain a petition ter torit of habeas Corpus in behaJif of Q
person in Gustodg os a result of a Slake judgment rP Custodg In Violotion of the U.S. Constitution iS Contended. In Such
Situations,^ 2254(d)O') authorises the Court to grant relief
it the State Court decision on the merits ct resulted in a deci­
sion 4hdk was Contrary to, or inv/olv/ed an

lldreasonable

appl[ca­

tion of, dearIg Cstab (shed federal lauD^ as determined kg the
Supreme Court of the United Slates.J>
the ^unreasonable Opplication of n douse of 5 P.250(d)(1)
repLures the State Court to hoa/e Correctly identified tfne.governing Supreme Court precedent but unreasonahlg applied it to the
uni jue_ facts of the prisoners Case. Ulilliaras v. Taylor, 524
U,S< 3G>2,4Q5 C2D00), The State Court decision Is reviewed
under cun olgehtWe Stand Gird. 222/, at 4l0' II. In cither wards,
the Court must OsK whether the State Court decision u uJCtS

) Ib

So lacking injusfifT cod'ion that Hhere uoas extol ujell under­
stood and Comprehended in cyisfing laio beyond any possibi lily
for 4ixiVminded disagreement.Harrington M. RicKfer., 5G>2 U.S.
8G>) 103 C2oii). Accordingly, habeas relief should begranted
Lin less the remrd, under any reasonable interpertodhon of the
Supreme Courts Controlling legal Standard, Suppojts fhe Convic­
tions. Paoetti \i. Qu outer mcum 551 U.S. 330,353 C2DOll.
Hn this petition, Hr. Bogan Contends 01 Hhe Slate OJppeh
lode Court identified the Carrehf Standard of ra/iCuO far his ChaP
lenge fa %e Sufficiency of the CA/idence but unreasonably apple
-ed if to the unicfue facte of his Case and C2.) the I Outer federal
Courts refused to OJieortd his habeas claim the full and four
hearing it us entitled to. Therefore, Hr. Bogan Seeks the
Courts discretionary intervention lest hes forced to remain
Lun loLiofaily imprisoned far the rvcvt It y ears.
Standard of PevieiO
When the Sufficiency of the evidence is challenged, Courts
must determine uohether, Vieuting the ex/idence in the light most
fbn/arable to the prosecution, any rational trier of-fact Could
hoa/e found the essertiai clemenfe of the dime beyond a reaSonable doubt. Appy. dot para. 25 ; DbaAsDr^^443 LI.5. at
313.

17

A.

The Fssent'ioi Elements Far Framing Earisfrucdu/e. Pos­
session Linder TLIlinois Lqjlo.

Xd is unequivocaJ dhod possession of a fCreano is an ts.senHod e.lemehd for esdablishing armed haJhidua) Orirninai ( 72.0
iLLCS <5/24 "1.7 (a)(D (\dcst 2012)) and defacing idendifi eofi-on
metrics of a fiireoirm (.720 XLOS 5/24 'S (b) (l/Jesd *2012). Wlhen
acfuLo) possession of a "firearm is cod at issue, ConskudT/e pasSession becomes 4he <S4odes burden do pra\/e. Appy. 2 od para.
27. Xhe esserfiai eJemerds of Construd)\/e possession is Cl)
Pinoudedge of fhe presence of dhe to capon and (27 irnmediede.
and exclusive Confroi of 4he area laheredhe bueapan loos found.
"People V, Hunder. 2013 XL 114100 od Id.
Xn regard do dhe L( immediate and eYelashAe Cnndrol* ele.'
nnend fiir esfablishing ConsVrucfiVe possession of a firearm
fiaund in a Vehiale ,fhe Slafe is literdllg obligated Loifh proving
a Onfun) possession* of dhe Vehicle udrvereindhe u)tcupon is
fioundc People V. SchmaJz, 144 Xll. 2d IS, 74 (2000) (defining
airnmediode and e-VcLusWe CnndroP inderdhomgahlg as ^Oefuai
possession*)’, Bnple v. Uihide, 33 Xll. App.3d 523,53) n.3
0475) (ConsfruefiVe possession requires aodiril possession of
fhe locus in or on lOhieh dhe pisdot is found ) ; Phople V.
Billings, 52.Xll.App.3d 414,421 0477) (Xame.); and People V.
Elders, GS Xll. App. J3d 554, 554 0475) (Same).

IS

Mr, Bogan Contends that the Slate utterly fai led to prox/e
his immediate. ornd exclusive Control CactaoJ possess!an) of-the
Cutlass wherein the. detaced Hi- Point .40 Caliber handgun

loos

■found) and his Knowledge at the weapon being therein.

I. The Stub Failed To Prove Mr, Bogans CEmmediate And ExciusWe. Control (.Actual Possession) of "The Car Containing The
Defaced Itond an.

3

Had the Stale appellate Court ‘'provided hair process and
engaged in reasoned) good-faith deeisi an - m alt ng in hen app Iging 'JacAsons c no roti onad tri er of tact' tesVY Cnmez. V.
A-Cex/edo, 10G> ifJ3d 132.,. 14^) (7^ Cir.

it Is plausible Mr. Bo

gans Convictions would have been reversed. This is because
there

loos

absolutely Ho evidence of Mr. Bogans immediate and

eValas We Control (actual possession) of the Car Containing the
defaced handgun.
The undisputed facts -establishes that neither the States
Lodnesses nor its evidence placed Mr. Bogom in actual pos­
session of the Cutlass on the dag the weapon was found j he
Was not observed -entering, editing, an occupant of or in Close
proximity to the Car. Appx. CL at para. 4M3. 3n tact, the officer
CSgt. Collins') ujho aduaJly Oirrested Mr. Bogan testified that he
did do immediately upon Mr. Bogan -exiting an apartment
haliding (Appx. A at pg. I57-5S), a pertinent fact omitted by

it

the Slate appellate Cm iPp Hr, Sagan didn't even hoa/e tWa VSe«j
to the Car, res id ti ng in a Slimjim being used to to/6 big enter Hr
in Order to perform the search. JZai at 227-28} Appy. C_ at para.
10,

'To -Support his Conttrtios ot hts Convictions being ob
jurfivelg unreasonable) Mr, (bag an (Sits three Tllinais author^
/and one tedercJ DLutboritg - People V. Zentz. 2& HU. App. 3d
20*3 0173") l Defendants 'Firearm conviction reversed inhere line
State, presented no evidence, cf him having actual posses­
sion of or the beg to a parKed, loeKed Car officers had to
tore) big enter to tfind a shotgun rf People, v. Elders, b3 Til,
App,3d 534 imiQ) CThere u)as no evidence of Cansfrative
possession of a pistol fband in a parKed Car the. defendomt
did not have. actual passed on of or the ViegtoV, People. V,
3cojt, 327 Til. App, 3d 283 C2Doo) l Without the beg to the
rnoJ I boX^Ihe defendant CouJd not Control ujhoit he Ceudd not oedtSSj thus reguJring one of his drug Convictions to be revers­
ed ); United States v. Medrano, 5 f.3d 1214 L°i* Cir. 1413)
( One drug Conviction based on Constructive possesion revers­
ed (johere officers put drugs in the defendants Car and taded lo return the Vehi cles beg to him).
Hosofar as
and /3/c/ests presented tacts analo­
gous to Hr. Bogans Case, noted in both Cases are the
Courts3 ofaserVcdhan of the States tan lure to adduce ejJi20

denee of the defendcurbs' respective ournership of dbe Vehi­
cles Containing (Ueapans^^jmCthing that the Skxte acmm’plisbed in Hr. Bogans Cose ( Appx. d. ott paro. G>,30. OiDnersb/p of a vehicle in CoasIructWe possession Cose, baiaever;
is not q Suhsfartive dement do prove, Linder CCIIinois Icuo*
id is immediate and eftdusiv/e Control (odnai possession) of
the Vehicle^ rather than OLOnership, uohich is pedinenV do pro­
ving Constructive possession of Contraband tound therein, Qor
pie \a M^NleeLp 94 Xll. App. 3d 102), 1025 C138)'); fee pie v. klheian,

145 :TII. App.Sd 125, 130-31 Cm&y> People V, Sesmos, 227 ail.
App.3d 1040, 1049 0992) ^ and People V. Chavez, 327 Hll. /\pp. 3ol
IB/2C (.2001). "The Ltldte appellate Court even acguiensced
to this tCelb established holding. Appx. d at para. 31'32
A-tthough dhe reguisite element of Mr. Bogans immediate
and exclusive Control of dhe Car Containing the defaced hand"
gun mas au>ell Understood and Comprehended in existing
lam bujand ang possibility tor fairminded disagreement3)
{/?/h}fter. ‘502 U.S. ad" 103 d, the State appellate Court nub
I [tied it CLn So doing,the Court eg regions )g concluded
that Mr. Bogans legal OuJneiship of the Cap 'fingerprint
being found on o box of am munition he ioas not charge
LOidh and unrelated to the defaced ,4o Catbep expired
health insurance Card and four'month old receipts ConSti tales his immediate and exclusive Control of the Car. AppX.
C. at para. 33^3453C. this is objectively Unreasonable
21

in light of (I) it i3 unsupported by owthordies and C2.) id”
Opposes authorities definingthe tm mediate and eXclusi\/e
Gartrof element of Constructive possession as t(arfLLaJ pos­
session” at the area wherein Contraband is found. Supra,
at pg. 18. The fact of the master Is logic, and evergdag Cir­
cumstances dictates Shat if a person Fs a C( legal aw>nerJi of
a VehidO)their fingerprints and item bearing their name don
reosanablg be expected to be found in the Vehicle, even when
it is, parked after being in possession of Someone other than
the owner.
Li Kewlse. egregious is the State appellate Couds inference
of Hr, fiogon being a tfregular drivern of the Cutloss, thus
establishing hie, immediate and exclusive. Control of the Car.
Appx. C. at para. 3C. the Courts determination is object/\/e"
Ig unreasonable for four reasons" Cl) it is unsupported hg
authoring ; C2.) the State presented no evidence of Mr, Bo­
gan ever drl vFng the Car ; (3) the Substantive etemert of CansWfiVe possession is immediate and exclusive Control (actu­
al possession) of the Car, net being a regular driver \ and
(A) if Owners, are bnoxon to Sometimes, give tup Complete Con
fro I of their Vehicle f J2/ at Si), mating ther actual passesSion of the Vehicle periadieoJIg temporal and fleeting, it Is
plausible thevSame holds true fiir regular drivers.
As there was no evidence of Hr. Bogan having the Sab
SfantiVe element of immediate and exclusive Control (actual

n

possession) of the Cor Containing the defaced handgun4 as
repaired by III finals lain, no fodhonal trier of fact Could ha\lt
found him guu Mg of Cansbucth/elg possessing She toeapan beyond
a reasonable doubt, CanseguerttliJ, the Sfate Courts' olec/Sian to
i

**■ J

the Contrary C(loqs So I oakling injusf timtion that there was. error
LoeJl understood and Comprehended in enisling Iojlo beyond any
possibility tor fiuVminded disagreement.>J T/a/ydc, 5D2 Li.3. af
IDS.
tfn -Sum, the. State Courts imreosonably Oupplfed JboJSonA
ccno rodiono] trier of foct^tedt in Mr. Bogans Cose,thus the
Court shouid grant habeas relief pursuant to H 2254CdXlb
2. The 3tdte fouled to Prox/e Mr. {bagnios hnaioledge Of The
Defaced ttouadgun Being Xn The bar.
Under Xllinojs IquO, 11 the mere presenee of a iseapan is insuf­
ficient to prove [the defendant] had hnandedge of the loeaponf
fhaple V. klright, 2013 XL APP (I94) I11&03 dt 2C>. for the inference
of Mr. (bogans ftnaioledge to orise,the defaced handy lon hod to
be found in on oreo under hie immediate and exclusive Con­
trol. feople V. .Smith, It I III. 2d 408,413 L2000).
Having aireodg demonstrated that the evidence adduced dt
Mr. {boyans fried fouled to esluhlish the Construct!\/e possession
element of t( immedl die and eYeiusWe Cortrof1 of the Car inhere!n
the defaced handylln LOOS found (Suypra at 13-23), it natura]"
23

ly tollauOs thof the uKnout edge’ dement

ujas

not -established

either. blonetheless, relying on Hr, Bogans legal iQronersbip of
and Cv/idenee tying h/m to the Car, the State appellate. Court doreluded djfftarntlg, AppX. d at para.4Cr4f.
Once again, the. ^fod'e. appellate Courts decision) q loos So
lading injush ft cedi an that there in as error uudl landerstaod and
Coroprebended in existing lain beyond any pa^ihility for fairmirid'
tA disagreement.5) f?)cA9tr^ S&2. U.S. ot IDS. "This is because
none of the eV/dence_the State Courts relied an proved Hr, Bogan
had been inside fine Cutlass, on the dag the. defaced handg un
llDQS -found. Absent Such evidence, if is arbitrary, Cgreg lOiAS
and objedivdy Lin reasonable tor any rationa] frier of fact to
Conclude beyond a reasonable doubt Hr. Bay,an KnecO the Ueapan Luas in the Car. Sn tact, fh-ere uJos ahsolutdg no evidence
O? Hr, Bogan even Kooning the gun existed ~ aider all, it loos
-fingerprinted and his prihfe u)ere not found on it. Appx, A at
pg. 3o4'IO.
db an attempt ta> Support its doncluslon, the. State appellate
Court Cited feaple V. Hampton, 358 XII. App.Sd 102.4, 1032 (2000),
inhere it mas stated 1
C(&3n order tortile inference to arise of defendants, boomledge of the handgun Luithin the N/ehides gloue Compart'
merit, the State had to demonstrate that defendourt had
regular, ongoing Control £u/erthe Vehicle he
Z4

loos

drii/inop

Slmi W to the regular and ongoing Control that one
has ouer his own li ning quarters. Regular and ongoing
Control ox/er a Vehicle might be established through proof
thot the defendant Ouans or regularly drives the Vehicle.p
AppX. <2 at para. 45"tG>«
the Courts reliance of this statement to Support its determine
at ion is a Vast misapplication of ’Hampy'onk roticunak. thot
fin an ledge cf Contraband mag be inferred from evidence that
the defendant is not only driving Lor actually possessing1) the
Vehicle Containing it but also Qians or regularly drives it.
to bald otherwise is to abrogrote the C(imnnediate and exclu­
sive ControlJl element tar establishing CorMructive possession
nnd Creates Qulpabdity hosed Solely an an inference of hnoto*ledge derived feem legal ownership. This Creates a dangerous
precedent where Owners, although not in possession at their
Vehicle but allowing Someone else to possess it, being reSponsible tar Contra band feund therein.
On a cLifferert note, Mr. (Sagans hnowledge of the weapon is
negated by the hey to the Cutlass not being tbund in his possesSian or the Oparlmert bdkvedta be his. Appx. A at pg. ‘227- 25.
By the hey being in possession of Someone other than Mr Bo­
gan, d is entirely possible tar the weapon to hai/e been placed
in the. Cor without Mr. Bagarn awareness, tnsafixr os the weapQn being wrapped in o Sweatshirt in between the bag with

25

Mr. Bogans expired heaidh insurance. Cord and the bag Cnnda/rving the ammunition bov uodh his fingerprlrd an \\ (Appx. C. c&
para, 8} 47), there

loos

na evidence. of Luka placed the luenpon

in the Gar and lolnen id (Occurred. See. Limited states \/. ifoJas.
5Ch fi Sapp.3d 402,407 C/d. D. XII. 2014) (Defendants idnauOtadge.

of the ft rearms

Could nod be. inferred in Ight of dhe uieapons

nod being In plcu'n Viao and dhe ladC of evidence indicoifing mho
planed dhem in the bedroom and ujhen Hhdd occurred).
The. food of dhe madder is Mr. Bogan testified to his god^
brother, Anton Bpencer, having been in possession of the Cud"
loss Oj\ the dag dhe defaced handgun ioqs found. Appx. A ad
pg. 36t~5G>,38l'62. As there loos no evidence to refute Mr.
Bogans teef many ^ the liWelihood of dhe loeapan being plac­
ed »n dhe. Car LLnbehnouJr^h do Mr. Bogan is bolstered. The
Sdoite appellate. Court; in Coxiduding odherujise (Appx. C. ad p ara.
40 n. 5), resorted do 3p€cudadhin — a prohibited aed. Bople V,
Ehlerd^ 2.11 XII. 2d 142,210 (2oo4) (A reviewing Court should nod
^peeuJode. in faa/ar of dhe prosecution ). Bg the Cars hey not
being in Mr. Bogans possession and no evidence, of him enterthe Car on the. deg the LOCapon

loos

found, /aho Knouis^ moghe.

2. Ofc. Byrne tesftied 4o ddaining Spencer u-Pter sAcpping Mr. Bogans
TmpaJo ; hoinu/er, there. was no testa many aC him Searching Spencer
Ond not fading the Hey to dhe. Ctdiass an him. Appx. A ab pg. 148"SS,

2k

Spencer Car tohoeVer he. may have gi ven the. Hey to) placed
the LUeapojn in the Crdtass and notified the police. to get" Mr.
Sagan Charged unith it. Reasonable doubt of Hr, Bogans
hnatoledge is> embedded In SucJh a sScenaho.
As there. loos no evidence of Mr. Bogan having dhe 3dbsdahtive dement of hncunledge erf the defaced handgun ber
ing in the car, as regujred kg Illinois loro, no rodiona) drier
of fact Could have found htrn guilty of Camtiaufivdy poSSSSS’
the uoeopan beyond a reasonable doubt. Conseguerdy the
Slate CourtsJ decision do the Contrary ^uoas so 1 aching injusfr
ficefiandhod there ioae error Lueil undersfond and Caroprchended in evicting IqllC hyaod any possibility dar tajrminded dis­
agreement fficAAer, 5C2 U.S. of 103.
7b Sum, dhe Slate Courts unreasonably applied UncAs/ons
no rdtianal drier of daei3>test in Mr. Bogans Case, thus dhe
Baurt should grart habeas relief pursuant do ^ 2254Gd)(l).
B. "The ■Qisdnef Con?t, As Retail dti orm Deprived Mr, Boy on
Of A fuJl And Four habeas Hearing.
tC4 is ayiomdticfhoLl' dhe office, of the. Lorit of habeas Carpas is intended to afford o prompt, efficacious remedy in
all cases of iilgal resbourtf and eonficement, fr£(y) 372 U.S.
at 401 "02. Hn other LOards. its eSserfinJ dandion Is to n/e.

31

27

q

prisoner a reasonable opportindy to obtain a reliable ju­

dicial determination of the tandamental legality of his Convic­
tions and Sentence. Cotrofos \i. La\/iaJl&,

1 L).S. 23tj 238

CRG>£0. Accordingly, the Court and Congress has emphasized
that petitioners in habeas Carpus proceedings are entitled
to Carefid Consideration and plenary processing of their claims
So as to Safeguard against arbitrary detention. Harris V. hlelr
Son, 3<it U.S. 28Q>7 25)8 WM1

3lh Mr. Gag ans Case,the cListridt Court deprived him n't
O/erg essertiai provision embedded in the right of habeas
Carp as, thus Continuing his unloaofd imprsanmert' in Violation
of his fifth and faurteerth Amendment rights to due process
Qnd CpuaJ protection of the laws. A V»\/id picture of this
is painted by the. tallowing Ci/ents «.
When Mr. (Sagan 4m led his petition tor writ of habeas

Cor-

pus and response in further Support of it CAppX. E, Qj)7 he de­
sired anjy whdi the office of the Writ intended ~ a Swift,
just decision. Nevertheless, the. disbiet Court delaged Qdjtui cation lor more than 14 manths) lahioh led Mr. Gag an to
pehtion the .Seventh Circuit Court of Appeals lor o iant of
mandamus to Compel the district Court tn forthwith and
justlg decide his habeas petition. See 3b re Antonia M.
Sagan} f8~3Gs80. However, beioretheCouut of appeals ruled

23

On the mandamus petition, the dis4ncd Court denied the
habeas claim and declined to issue a CD A. Appx. IE at pg.
I. Tn So dolngjthe Court did not accord Mr. Bogan a fall
an d tour hearing,

As

an initial matter, the Court stated that Mr. Bagan orgued that the 3late- tai led do establish hie q actual posses­
ion of the Sabjeet handgun.}> Appy. IE at pg. 1 n. 3. "The
Coeds assertion) however, is untrue Mr. Bogan a/gued
that the State touled do prove hie actuaJ possession Ci nono edE ode. and exclusive Control) at the Car Loherein the de-Paced handgun zoos Pound. Appx. E at pg. 0, II ; Appy. G

at pg.

LS.

But Mr, Bogans main Contenten of the Court depriv­
ing him of a ttdl and tour hearing is premised on the
standard of rex/iCio governing his challenge tr> the Suffii Ciency aP the evidence — Jbc.£s£>n i/. l/irp/nia. There,
the Court mandated that the ^standard must be. applied
euith explicit references to the Substantive dements of the
Criminal offense as defined by 3tate laiof1 tJbcJCson,
443 U.S. of 324n.lfc.
Tn deciding Mr. Bogans Claim, the Court did not Comply
Loith dOc-Mscm \ its opinion (Appy. CL) is campkteJy devoid
of Tllinots authorities explicitly defining the Substantive

at

elements of Constructive possession Cthe hose element to Hr.
Bogans Convictions). Hithauf Such references, if is 'impassible,
to ascertain Luhether the Court independerstlg hneuj and Q5Scssedthe dements needed to prove Hr. Bagouns guilt and,
mare importantly, Lohether if reasonably determined that
Mr, BojQjotis Convictions are not an reason aJble applications of
UoaAsosi. The Courts independent assessment of Mr. Srr
garb claim is farther questioned by its neglect for refusal)
to address'-to disltnguisb, or otherwise give reasoning not to
tot low - the authorities Mr. Bogan Ctied in his response CAppx.

G).
Aftenpiing to acquire a fid I and fou r CJbcAs/Cui reA/iew, Mr.
Bogan moved the Court for relief of Judgment; however, the
Court refused to Correct its legal errors.
first, the Court sidled, ait is not required to Cite Til Inc is
Cases when applying that lawd AppV. M at pg. 2. This Cant
be right when JacAsan (543 US. at 32d '25) and numberous Courts Loitbi n the_ Seventh Circuit f Borner, IOC 53d at
Zoo ; ford v. Ahifaw, lot 53d

(1997) ; United Slates

ex heh LeqVa v. WlalU. 23o USupp. 2d Ml, £>53 LlDol) \
United ^States ex rel. Conde v. Scott, 2M fbupp. 2d 1203, 12£)&"
Crt (2002) 1 and Curtis v. Montgomery 552 (73d 573,551 "83
(2DD91) citing State louo when they analyzed the claims ber
4dre them. Brides, hems Could it be Known what loud LOOS

30

Opplitd if cifnfi on to Hive. louis are not provided ?
Second, the Court insinuated thatit Could IcugK to Federal
Caselouo f^fheEkLhsfunfiVe elements of an offense under iHlincds \qjuo. Appx. M ot pg. 2. Such a notion opposes Cafer
man V. Johnson 132 S. Ct 20&0, 2oGd C20I2), tuhere the.
Court Cppressedlg held that “[Lfjnder

federal Couits

must loo K to S4ote loan far the Substantive eiemerts of the
Criminal offense d* Besides, not one of the federal Cases Cit~
Gonfdruefive possession under SCllinais lam.
third, the Cnubt stated that if did Cife Illinois Icuo u)hen
Considering Hr, Bogans habeas petition. Appx. M at pg. 2.
true, the Court cited the Illinois Sbbkites ■for armed haltiu~
oJ criminal and identification marts of a firearm, LohicJh bdh
requires possession of a firearm L Appx. I at pg. t) ] hotoCVer, t did not (tte Illinois authorities defining the Suhstom'
five elements of possession - Construct!\/e to be precise.
the Fact of the matter is, etthough the Artterrorism and
Effective Deoth PhnaJtg Act 0\EDPA) requires Federal Courts
to accord deference, to vSkde Courts decisions,the district
Court im properlg gaa/e absolute deference and refused to
perform an independent rex/ieio of Hr. fiogans claim. See
Miller-El v. Cockrell, 123 S. Ct. I02%I041 (2003) tuEven in
31

dhe Canted of fed&rai hob eas, deference does nod Imply a bandojnrnent or abdication cf judicial rcx/ieuD^).
GWen dhe Courts decision an Mr. Bag am habeas petition
Coming only after ha filed the mandamus peddion^ id is clear
dhoddhe Gourds fill lure “"and SidhsecjuenV refusal "to odjacLiCdfedhe Claim in full Compliance uuidh JbcJzson tuas redaJiatory. Such an action Summarily deprives Hr. fiognn of his
fifth and iourteendh Amendment rights do due process and egual protect!on of dine Icuus unless the. Gourd intervenes on
bis behalf do remedy these ComffufiionoJ Violations.
Hn sum, Mr. (boyan has no other avenue Csee infra ad 32-"
35) do acquire the relief he.SeeKs - "the reversal of his Convio.tlans as a result of a full and fair
reVieiO. there­
fore, Hr. Boyan o^ksdhe Court to grard his pefifion for tend
of habeas Corpus.
Go dhe Gourd Of Appeals^ 3n Collusion Ididh "The DLstridd
Coud To Deny A full And fair Habeas Hearing, Denied
Mr. Bogan A Full And Four CoA Hearing.
Hd is LueJb established dhodt a State prisoner SeeKing Q land
d habeas Corpus has no absolute entitlement to appeal a
district Gourds denial of dhe pettian. /ii//er-£'/J 123 S. Cd
ad 103d. Before an appeal may be erderdained, a prisoner
32.

must first SeeX a CdA 4mm a clreeuf justice nr Judge,
and a CoA may Issue Only if the prisoner mate o Suhstan^homing of the den fa) of a Constitutional right. c23/. A ^Suhr
^kxnti al Shorn i n0 M is inhere a reason ateJurisi Could debase
Lohetber (or, 4ixr4bah rridtter5 agree that) The petition Should
hou/e been resolved in a different manner orthdl the issue
presented mere adequate do deserve eneomrage to proceed
^iuther,3) 8lade v. McDojnid- 523 U.S. 473,4M C2ODC0.
ITn Mi I/tr-El, the Court expressed !g held that a COA de+erro'iAcd'iQn under 23 U.S.C. § 22S3 requires adhreshdd fnguirg- an DVerVieu3 of The oJoirrvs in She habeas petition arid
a
district Courts resolution of the Const tutiona! cl aim are de­
batable ar disagreeable amongstjurists of reason. M/Z/er-'
2T/y 123 S. (St. at 1034. the statute itself mates it dear
that this procedure is> md /spend ble in determnang lohefher
a petitioner has made a Suhefartiot shou/ing of the denial of a Const fifi on nl baht fiir the issuance of a CoA. ^ 223#

Czt

3

Jt is onegaA/oeal that Mr. Bog CUDS reguedfe. for a Co A
Contended that his Convictions are Cantrarg to Xllinais IcuJ
defining the Suhdtanfwe demerits of QonsWdive possession,
thus mating them un reasonable oppl/catiojns of Efoe.Eson,
and that the district" Court deprived him of a full and fair
33

Jbcs&son YejJieuJ. Appx. K, L. As the Contentions in hrs Co A
requests being essentially the Sonne as those: made in this
petit ion l Supra. at lh~32Y, it Is clear that Mr. Bogan md
his harden of rooking a Subefartial Shouting ob the denied
of Constitutional rights ( RY4h and Fourteenth Amendment riglrih
to due process and equal protection of the laios). Nie/ertbe''
less,the Court of appeals CompleteJg ignored these issues
as it Continued the Violations of Hr. Sogoans rights.
Evident bg its order, the Court d/d not perform a threshold
inquirg - on Oi/en/iao and general assessment - ot Mr. (Sogans JbeJ&an Claim and Contention of the district Court
fan ling to g'Vc him a fail and fair hearing \ it instead! tound
no substantial Shorning of the denial of a Const hit/ona!
right in Mr. Bogouns attempt to appeal the dismissal of his
habeas petition as untimely. Appx. Kl. The problem loith
this is thot the Courts Conclusion in ibferenca to the petitions
disposition is clearly incorrect" the petition Laos timely tib
Cjd (AopX. hat poua, C.1 and the district Gauds odjudicaiton
loae> not a dismissal as untimely, hut denial on tine Cod",
leged) merits. Appx. T. Although the Court ujas made
Oioare of these tacts and asked to reconsider Mr. Bogans
requests for a Co A, it denied reconsideration. Appx. 0.
It Mr. Bogans Contentions In his CD A requests mere,
tmely mentless^the Court Should not have hod a problem
34

ujith performing o, threshold inquiry and CLrtieuJailng cohy

;+

'finds no 3uhstant\aJ shouting of the denial of a Constitution
nl right, as apposed to using

q

hnaioioglg false procedural

ground to deny Hr. Bogan a full and fair CoA hearing, Thus,
it is Only reasonable to Conclude that the Courts decision
Luas in Collusion Luifhthe. district Court 4o deprive Mr. Bogan
of %o CareEd Considered! on and plenary processing h«s hobe
as da/ro is entitled 1b (^orr/<sy

U.3. at 2381 Such an

acton deprives Mr. Bogan of his Fifth and fourteenth rights
to due process and equal protections of the lajds unless the
Court intervenes on his behoJf to remedy these Cmsf WtianaJ
Violations.
Xn Sum, Mr. Gag an has no other avenue3 to acquire the re­
lief he Seeks -the reversal of his, convictions as a result of
a full and fair dJhcJ^san reVieia. Ulherefare, Mr. Bogan asks
the Court to grant his petition far lorif of habeas Corpus.

(2DMc.Lua,3:oNl
Mr. Bogan respectfully requests the Court tn grant his
petition for Lorit of habeas Carpus, and in So dang, to direct
the TLoeJfth CLidleial Circuit Court of XI lino is to issue Q Cert'
ficate of Xhnocence / Judgment of Acquittal, and for any cr
ther relief the Court deems proper and Just.
———i——M——irf-w —iiiwfr—

3. the. Court denied certiorarii an ihfc (Wt ot appeals denied of a CoA.
Appy. F. FlareoA/er,ihe Court of appeals, denied mandamus reliet to .
Compel a full and fair hearing. Jn re Antonip H. Bogan. Klo. 20*2631/

36

VERXFXCATXOfsl
dThe undersigned decJarts under penally of perjury pur"
fuiounf to 2& U.S. CL. 3 n4fo dhotf vH\e. infer mail on Cojrrtcuned
in ib«s f^ddion for Wrd of Habeas Corpus is4rue and CorreoV
in df>e be^f of his bnou3 ledge > ioWmatfon and belief.

CgS Af-

Date *. .September ic^2o2D

4*

Arrtomo M. Bogan

Id Ho. Rzqsqs
10-330 Laurence Road
Sumner.) XL G>2

i

3£>

